U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Keith A. James v. United States of America, No. 20-5993
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 7, 2020.
Although the government waived its right to file a response, the Court has requested that
a response be filed. The government’s response is now due on December 21, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension
of time to and including January 20, 2021, within which to file the government’s
response.
This extension is requested to complete preparation of the government’s response,
which was delayed because of the heavy press of earlier assigned cases to the attorneys
handling this matter.

Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5993
JAMES, KEITH A.
USA

SAMANTHA JEAN KUHN
OFFICE OF THE FEDERAL PUBLIC DEFENDER
FOR THE EAST
500 POYDRAS STREET
STE. 318
HALE BOGGS FEDERAL BUILDING
NEW ORLEANS, LA 70130
504-589-7942
SAMANTHA_KUHN@FD.ORG

